<html>
<title> - TUNISIA'S FRAGILE DEMOCRATIC TRANSITION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                TUNISIA'S FRAGILE DEMOCRATIC TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-69

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Green, president, International Republican 
  Institute......................................................     5
Mr. Leslie Campbell, senior associate and regional director, 
  National Democratic Institute..................................    14
Mr. Aaron Zelin, Richard Borow Fellow, The Washington Institute 
  for Near East Policy...........................................    15
Mr. William Sweeney, president and chief executive officer, 
  International Foundation for Electoral Systems.................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Green: Prepared statement.....................     8
Mr. Aaron Zelin: Prepared statement..............................    19
Mr. William Sweeney: Prepared statement..........................    29

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    56


                TUNISIA'S FRAGILE DEMOCRATIC TRANSITION

                              ----------                              


                         TUESDAY, JULY 14, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
any member seeking recognition for 1 minute. We will then hear 
from our witnesses. Thank you to our witnesses for being here. 
I apologize that we did not get a chance to shake your hand and 
say thank you beforehand.
    The witnesses' prepared statements will be made a part of 
the record. Members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules.
    Before we begin, I would like to recognize the Tunisian 
Ambassador to the United States, who is in attendance today. We 
welcome the Ambassador when he comes, and look forward to 
continuing to work with Tunisia to help its people realize 
their goal of a democratic future. The Chair now recognizes 
herself for 5 minutes.
    Perhaps it is fitting that Tunisia, the nation that started 
the Arab Spring, is the only country in the Middle East and 
North Africa that has made any significant progress toward 
democracy. But that future success is still very far from 
certain. Despite all of the positive gains that Tunisia has 
made over the past 1\1/2\ years-plus, from adopting a new 
constitution to electing a new Parliament and the first real 
free and fair Presidential elections since its independence, it 
has been two high profile terror attacks in Tunisia that has 
really, sadly, captured the world's attention in this North 
African country. And with greater scrutiny over Tunisia's 
security situation, the international community has also 
highlighted some of the other struggles the current government 
is facing as it strives toward democracy.
    One of the major stumbling blocks for the new Tunisian 
Government is turning its economy around. As the recent terror 
attacks at the hotels on the east coast of the country reminded 
us, Tunisia is largely dependent on the tourism industry. 
Tourism is responsible, in fact, for some 15 percent of the 
total GDP. Tunisia's tourism industry is already taking a hit 
from the economic troubles in Europe. They might just not be 
able to recover if there is any lasting damage to its tourism 
economy. In fact, Tunisia's President stated that another 
terror attack like the one last month could cause the collapse 
of his government. But cracks in the country's economic outlook 
were already there. The government needs to do more to 
fundamentally address the economic challenges as well as the 
security challenges if it is to continue to have the support of 
the people of Tunisia.
    And that is why programs like the Tunisian-American 
Enterprise Fund, which invests in small and medium businesses 
to spur economic growth and employment, are steps in the right 
direction. Democracies aren't formed overnight, but it becomes 
difficult for people who have been through so much and who have 
come so far to be patient and to understand that this is a long 
process, and that there will be ups and downs along the way.
    The nascent government needs some major accomplishments 
that it can point to in order to really solidify its support 
for Tunisia's democracy project. And that is where the United 
States could play a very important role. The stability of 
Tunisia and the viability of its democratic transition are not 
only strategically important to the United States and the 
region, but it is important to all of us who believe in 
democracy and what the people of Tunisia are trying to 
accomplish for themselves.
    It would reaffirm the significance of the demonstrations 
that millions of Tunisians participated in to get this started. 
And it could still prove to be the spark for change across the 
entire region--the example for others to emulate. That is why 
it is critical that the U.S. invests our assistance in Tunisia 
wisely, and that our policy puts the people of Tunisia in the 
best place to achieve their goals.
    We need to ensure that our security assistance is going to 
building up Tunisia's capability to protect its citizens, to 
enforce its laws, to defend its borders from the terrorist 
threats coming from Libya and Algeria or returning from 
fighting with the terror groups in Iraq and Syria.
    Last week's designation of Tunisia as a major non-NATO ally 
was a very positive step forward. We are going to need not only 
a partner willing to cooperate with us in the fight against 
ISIL, al-Qaeda, and any other terror group, but an able partner 
as well, because make no mistake, Tunisia is home to the most 
foreign fighters that have flocked to Iraq and Syria.
    Once these guys return and put into practice what they have 
learned on the battlefield, Tunisia will have its hands full. 
We must also ensure that we are helping Tunisia build the 
foundation for democracy by supporting the rule of law, civil 
society, and respect for human rights. We need to help the 
Tunisian Government strengthen its institutions and consolidate 
the political gains that they have made in these past 4 years. 
In short, we need to invest in Tunisia's future if we want to 
ensure that the future will be a democratic one.
    I commend the people of Tunisia for not letting the recent 
terror attacks disrupt their progress toward democracy, and for 
their commitment to this transition that they began in 2010 and 
have paid a very high price for. They deserve our support. And 
with that support, they could one day be the model for other 
countries in the region. With that, I would like to turn to my 
good friend, the ranking member, Ted Deutch, for his opening 
statement.
    Mr. Deutch. Thank you, Madam Chairman, for calling this 
very timely and important hearing. And thanks for our witnesses 
for the great work that your institutions do around the world 
to support democracy.
    Tunisia has been hailed as the success story of the Arab 
Spring. It has by any measure been the most promising 
transition from autocracy to democracy. Constitutional reforms 
have progressed, parliamentary elections have now been held 
twice. Political parties have proven that they can not only 
peacefully transfer power, but they can govern together in a 
coalition. But transitions are not without bumps. As is the 
case with every democracy, whether a few years old or a fewer 
centuries old, there are internal tensions within society. But 
the success of a democracy is in part based on foundations 
established within a country that allow and encourage debate 
and freedom of expression from all parts of society.
    For example, the parliamentary elections of 2014 showed an 
electorate that wanted its government to go in a different 
direction. The election of the Nidaa Tounes party over the 
Islamist Ennahda party could have been a disastrous change of 
power, but the Parliament committed to a transition that, even 
if challenging, would nevertheless remain peaceful. I have to 
say this was very much noticed and respected here in Congress. 
With the expansion of civil society groups, political parties, 
and media outlets in Tunisia, more voices are contributing to 
the national dialogue about the current state of the country 
and the best decisions for moving forward.
    The government should pay heed to the discourse and act in 
the best interests of the Tunisian people and the stability of 
the state. Since the revolution, Tunisia has struggled to 
regain economic prosperity. There is great concern that Tunisia 
cannot fully stabilize and complete its democratic transition 
if the economy doesn't grow. Tunisia is currently facing an 
unemployment rate of 15 percent, and that rate nearly triples 
among working class youth. But Tunisia is a sophisticated 
society with an educated and professional workforce, and the 
government must implement reforms to open and expand the 
economy. Achieving success and political reforms, which 
includes receiving popular legitimacy, must go hand in hand 
with improving the people's economic opportunities.
    Tourism, long a key revenue stream for the country, has 
struggled, particularly amid the recent terrorist attacks that 
have caused countries such as Great Britain to discourage 
travel, and foreign investment and trade have suffered as well. 
I support our country's aid efforts to support the Tunisian 
economy, such as the establishment of the Tunisian-American 
Enterprise Fund and sovereign loan guarantees. We all fear that 
the recent spate of terror attacks threaten to undermine 
Tunisia's success. I offer my condolences to the victims and 
their families of the deadly terrorist attacks this year on the 
Bardo Museum in Tunis and in Sousse, many of whom were foreign 
nationals. Tunisia is struggling with homegrown terror cells, 
the proliferation of terrorist groups such as AQIM, Ansar al-
Sharia, and the Islamic State within its borders, as well as 
external threats coming from Libya and Algeria.
    Tunisians have traveled at an alarming rate to train with 
ISIS. And the threat of their return home looms. And with 
reportedly one of the largest foreign contingents in Iraq and 
in Syria, the country must address ways to improve security 
conditions. The government's decision to issue a state of 
emergency certainly speaks to the high level of threats facing 
the country, but it must be careful to provide for the security 
of its citizens without restricting basic civil liberties 
guaranteed by the Tunisian constitution.
    I support President Obama's decision to designate Tunisia a 
major non-NATO ally and the decision to enter into a memorandum 
of understanding with Tunisia. These are clear signs that this 
administration recognizes the country's post-2011 achievements, 
its commitment to cooperating on mutual security threats, and 
the national security interests for our country, and bolstering 
the capabilities of a North African ally in a very tumultuous 
neighborhood. It is also important to acknowledge the great 
work that each of your organizations have done and continue to 
do every day.
    I often speak about the role of our foreign assistance 
program. And I believe that it is within our national security 
interests to offer not only military assistance, but also 
political, social, and economic aid to our overseas partners. 
The programs run by your organizations and the successes they 
have achieved offer strong evidence for the incredible return 
on these investments.
    Tunisia has taken great steps toward democracy, and the 
progress achieved since 2011 should be lauded. To sustain 
success, sustain success and to push forward, the government 
must continue to work across political parties to address the 
priorities of today's Tunisia. And it is my great hope that it 
does not sacrifice this progress in the name of security.
    I look forward to discussing with our witnesses today how 
U.S. policy can support Tunisia's path forward to democracy, 
economic prosperity, and greater security. And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    I now would like to yield to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chairman, for calling this 
important hearing. Tunisia could be a model in many ways to its 
neighbors in the region for having forged a democratic 
government following the revolutionary overthrow of its 
authoritarian regime in 2011. And as we all know, it had a 
dramatic impact because it essentially set off the Arab Spring 
throughout the area. And we have seen tumultuous both positive 
and negative outcomes of that.
    But it did start really in Tunisia. At the same time, the 
growing terrorist threat in Tunisia is worrisome as terrorist 
networks have gained influence and ground. The recent mass 
disappearance of 33 people is a sign of radicalization among 
some young Tunisians along the border with Libya. And it is 
clear that Tunisia now faces another challenge of impeding, 
stopping this recruitment, and preventing further attacks 
against its citizens and the effect that that will have on the 
tourist industry, which is absolutely critical to the country.
    And so we look forward to the hearing, and I want to 
especially thank Ambassador Green, who is a friend and 
colleague of many of us, who served about 8 years here in 
Congress together. And he was a leader on a whole range of 
issues. And it is good to have him back. I yield back.
    Ms. Ros-Lehtinen. I echo that sentiment. Thank you so much, 
Mr. Chabot.
    And now I would like to introduce our witnesses. First, we 
are pleased to welcome Ambassador Mark Green, who is the 
president of the International Republican Institute. He is a 
former U.S. Ambassador to Tanzania, and served as a Member of 
Congress, as Mr. Chabot just pointed out, representing 
Wisconsin's 8th District from 1999 to 2007. It is always a 
delight to see you, Ambassador.
    Second, we welcome back Mr. Leslie Campbell, who is the 
senior associate and regional director of the National 
Democratic Institute. Previously, he was the chief of staff to 
the leader of the New Democratic Party in the Canadian House of 
Commons, and has served as a guest lecturer at Georgetown 
University. Welcome back.
    Third, we also welcome back Mr. Aaron Zelin, who is the 
Richard Borow fellow at the Washington Institute for Near East 
Policy. He has conducted extensive research on jihadi groups, 
with a focus on North Africa and Syria, and is writing his 
dissertation for Kings College in London on the Tunisian jihadi 
movement. As a recipient of that final degree, my condolences 
to you. Good luck with that.
    And last, but certainly not least, we welcome back Mr. 
William Sweeney, who serves as the president and CEO of the 
International Foundation for Electoral Systems. Formerly, he 
served in the board of directors of IFES, conducting several 
high profile elections across the world, and served as vice 
president of Global Government Affairs for EDS.
    And I would like to commend our panelists today, and I hope 
that you have all had the opportunity to see the newspaper The 
Hill this morning. Our panelists wrote a great op-ed, which was 
published in The Hill, on Tunisia. So thank all of you for your 
commitment to the people of Tunisia and for promoting U.S. 
values to a key ally in the region. Great job. And Mr. 
Ambassador, we will begin with you.

STATEMENT OF THE HONORABLE MARK GREEN, PRESIDENT, INTERNATIONAL 
                      REPUBLICAN INSTITUTE

    Ambassador Green. Great. Thank you. Thanks, Chairwoman Ros-
Lehtinen, Ranking Member Deutch, and Mr. Chabot. I am honored 
to be here and to have this opportunity to speak on the 
brightest hope for democracy in Middle East and North Africa, 
Tunisia.
    At IRI, we believe that Tunisia's remarkable journey toward 
democracy can serve both as an inspiration for those hoping to 
shape their own democratic path, and also a rejoinder to those 
who claim that democracy has little chance outside the Western 
world. Tunisia's story should also serve as a symbol to 
policymakers of what nonprofit organizations like IRI, NDI, and 
IFES can do with U.S. Government support when we work as one 
team. I had the privilege of observing the parliamentary round 
of voting in last year's elections. Like others, I was struck 
by how Tunisia's political stakeholders showed a truly 
unwavering commitment to democratic principles throughout the 
process.
    Both in victory and in defeat, Tunisia's political 
competitors accepted the voters' will. That is particularly 
striking in a region too often haunted by polarization, 
sectarianism, and extremist violence. In my view, the Tunisian 
people have shown their mettle. And as the country faces its 
new challenges, we must show our mettle and our willingness to 
help.
    The administration should be commended for joining with 
Congress to expand U.S. security assistance to Tunisia through 
foreign military financing, military training, and security 
sector reform efforts. We must also be smart about the kind of 
security assistance we provide. We want to help the country 
reform security services that were created under an 
authoritarian President's reign to ensure that they are now 
ethical, citizen-centered, and just. The administration and 
Congress should also be commended for the considerable economic 
assistance being provided.
    Tunisia's economy, as noted, has floundered largely since 
2011, and the terrible June 26 terrorist attack will only 
create even greater economic pressure on a country still 
grappling with the effects of previous mistakes and bad 
policies. IRI's most recent polling in Tunisia shows that 
unemployment and the economy are the issues weighing most 
heavily on the minds of Tunisians, particularly young 
Tunisians, surpassing even security.
    Tunisia needs to carry out reforms that will remove 
stifling bureaucracy, encourage small and medium enterprise 
growth, attract foreign direct investment, and produce a 
skilled workforce. As they take on those reforms, we should all 
be there to help. Since the elections, IRI has focused its 
attention on helping the new government identify and meet key 
policy priorities by strengthening inter-ministerial planning, 
coordination, and communications. We are supporting the 
Tunisian-led process of decentralization to ensure that all of 
Tunisia's regions are listened to.
    As many of you know, the disconnect between Tunisia's 
coastal and interior regions was a key factor prompting the 
2011 revolution. We are also supporting a national 
accountability network that is strengthening the involvement of 
Tunisian youth. As we noted in our election statements last 
year, the lack of youth voter participation is a serious 
concern that Tunisian leaders must address. Our polling shows 
great interest on the part of youth in building a more 
democratic and entrepreneurial Tunisia. At the same time, 
however, many youth apparently don't carry that interest over 
to participating in key democratic institutions. That obviously 
must change.
    Madam Chair, we have been asked to offer some 
recommendations for Tunisia going forward, and we are honored 
to do so. For Fiscal Year 2016, the administration is seeking 
to more than double last year's level of assistance. We agree 
with that plan. However, according to one analysis, only 16 
percent of that assistance will fall into the category of 
governing justly and democratically. We respectfully suggest 
that much more needs to be done.
    We need to see in this new strategy real support for 
continued political party development. If Tunisians don't 
believe that political parties effectively represent their 
interests, especially at the local level, it can worsen 
regional tensions and undermine confidence in the national 
democratic process. Furthermore, if political parties aren't 
seen as issue-based, there is much greater potential for 
renewed polarization, especially with respect to secular and 
Islamist political groups.
    Tunisia will hold elections, probably, in 2016. The time to 
foster genuine democratic competition is right now. It is to go 
to work especially to bring in young Tunisians. We think it is 
very, very important. We also need to continue to support the 
work of civil society groups, in many ways the first and most 
immediate way that young people could become involved in the 
process. And again, if it is a broken record in our testimony, 
we think it is crucial that young people be connected to 
constructive democratic institutions so that they have a stake 
in the survival of democracy.
    To wrap up, Madam Chair, Ranking Member Deutch, we have all 
seen remarkable things take place in Tunisia in these last 
several years. Much has been accomplished. Again, we are proud 
at IRI, working with our sister organizations NDI and IFES, to 
have played a role in that effort, but we know that the 
transition is fragile, and it needs all of us and our help. 
Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    [The prepared statement of Ambassador Green follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Ms. Ros-Lehtinen. Mr. Campbell.

STATEMENT OF MR. LESLIE CAMPBELL, SENIOR ASSOCIATE AND REGIONAL 
            DIRECTOR, NATIONAL DEMOCRATIC INSTITUTE

    Mr. Campbell. Thank you, Madam Chairman, Ranking Member 
Deutch, members of the subcommittee. It is a pleasure to be 
here again to talk about Tunisia. Nearly 5 years after the 
protests toppled Ben Ali, Tunisia has adopted a modern 
constitution, and for the first time democratically elected a 
new legislature and President. The process of getting to those 
elections was not without its challenges, with a prolonged 
constitution drafting process that was tested by occasional 
political deadlock, and twice rocked by political 
assassinations.
    The road forward toward consolidating democratic gains, 
building the capacity and sustainability of governing 
institutions, ensuring the protection of freedoms achieved 
through the revolution, and enacting much needed economic and 
security sector reforms has not and will not be easy. Tunisia's 
fragile polity today seems more vulnerable than at any other 
point to date. But on a hopeful note, I have to say that 
several factors have differentiated Tunisia from regional 
neighbors which have struggled with their process's 
transitions, either succumbing to a return to authoritarianism 
or slipping into violent chaos.
    What makes Tunisia or what has made Tunisia different? 
Number one, Tunisia took time to develop a constitution, 
undertaking a deliberative and representative process rather 
than rushing into snap elections that could have exacerbated 
regional differences and partisan polarization. As it has 
historically, the Tunisian military stayed out of politics and 
refrained from interfering with economic policy. It remained a 
neutral institution focused on defending the country's borders, 
and it did not enter the political fray. Civil society was 
allowed to flourish, and secured a role in the transitional 
process, demanding dialogue, compromise, and inclusivity. Civil 
society organizations, trade unions, women's groups, community 
development associations were treated as important partners in 
the democratic transition.
    And finally, number four, Tunisia's political leadership 
generally avoided hyperbole and polarization, seeking 
compromise, and embracing the concept of no victor, no 
vanquished. These factors manifested in the highly competitive, 
but ultimately peaceful and credible elections, of 2014. Beyond 
voting in significant numbers, tens of thousands of people 
participated as candidates, poll workers, candidate 
representatives, and citizen monitors.
    Notably, Tunisia defied the oft repeated warnings of 
naysayers that Islamists would never give up power once elected 
to office, the notion of one vote, one time--one vote--one 
person, one vote, one time, and the majority Ennahda party 
conceded defeat in the legislative elections and joined its 
opponents in a national unity government.
    Throughout this transition, NDI and IRI and IFES, working 
together, as was said, we provided Tunisia's democratic 
leadership with advice and information on comparative 
democratic experiences. Through the United States Agency for 
International Development (USAID), the State Department's 
Middle East Partnership Initiative, the group that is 
represented here received funding to establish programs within 
weeks of Ben Ali's departure. Ahead of the 2014 elections, 
NDI's U.S. Government-supported activities helped create a 
space for inclusive political debate that would inform citizens 
and expose them to various political options.
    We worked to keep parties, political parties focused on 
building lasting structures and creating platforms that 
incorporate citizen concerns. The parties' investments in their 
internal structures, recruitment of party activists, and 
platform development have already contributed to democratic 
stabilization. The calls from the United States and the 
international community during the uprising of 2011 demanding 
that the Tunisian Government listen to pleas for dignity lent 
important legitimacy to citizen aspirations throughout the Arab 
world. Despite Tunisia's numerous challenges, there are reasons 
for great hope.
    Tunisia's transition, symbolized by the adoption of its new 
constitution, remains on track, setting it apart. But in terms 
of recommendations, Tunisia is in need, still in need of 
assistance to democracy, to its economy and to security reform, 
and the United States should continue to support popular 
demands for transparency, accountability, and freedom.
    One of the themes for today I think is going to be how to 
find that balance between freedom and security. And I look 
forward to questions on that exact topic. But this means as a 
hopeful exception in the Arab world, which is managing and 
inspiring a fragile transition, Tunisia wants, needs, in fact 
demands Western solidarity and investment. And I hope that we 
can respond adequately to that.
    The administration and U.S. Congress should be steadfast at 
supporting an enabling environment for parties and civil 
society to continue to build a democratic Tunisia, and support 
the aspirations of both Tunisian citizens and those around the 
world who look to Tunisia for inspiration. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Campbell, very much.
    [Mr. Campbell did not submit a prepared statement.]
    Ms. Ros-Lehtinen. Mr. Zelin.

    STATEMENT OF MR. AARON ZELIN, RICHARD BOROW FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Zelin. Thank you, Madam Chairwoman, members of the 
committee, for giving me the opportunity to testify today on 
Tunisia's transition, in particular focusing on recommendations 
related to the jihadi threat.
    Currently, there are two main groups that are attacking the 
Tunisian state, an al-Qaeda in the Islamic Maghreb cutout 
called Katibat Uqba ibn Nafi, and the Islamic State, which has 
a safe haven in Libya as well as cells inside of Tunisia. Since 
the elections late last year, there have been 11 known 
terrorist attacks claimed or believed to be conducted by AQIM 
or the Islamic State. In response, there have been 21 arrests 
of those suspected of planning attacks or being connected to 
attacks that have already occurred.
    The Tunisian military has also been involved in operations 
against insurgents 10 times in this time span. This illustrates 
that the threat from jihadis is very real, but also that the 
Tunisian State has been quite proactive in attempting to stem 
any more attacks, whether in the form of terrorism or insurgent 
activity. You can get more specifics on the background of both 
AQIM and the Islamic State's activities in Tunisia in my 
written testimony, as well as what policies the Tunisian 
Government and the U.S. have already implemented over the past 
\1/2\ year, which has largely been military focused, or we can 
talk more about it in the Q and A.
    Since we only have short amount of time, I wanted to focus 
more on recommendations that can complement the military 
options already taken. They might seem less sexy, but they are 
just as important. Regarding the strengthening of the rule of 
law, Tunisia's draft security bill is highly controversial and 
has major critics, which could lead to a repeat of the 2003 
terrorism law passed by Ben Ali that was regarded as against 
human rights. It had many loose definitions, and unjustly led 
to many arrests that had nothing do with terrorism.
    From 2003 to 2011, a number of individuals that were 
arrested were not terrorists, but while they were in prison 
they became radicalized. As we saw following the March 2011 
prisoner amnesty, many of the individuals that had been 
radicalized in prison then were involved with Ansar al-Sharia 
in Tunisia. Therefore, if the security bill is passed, it will 
only lead to a repeat of what has already occurred, which would 
suggest the Essebsi-led Government has not learned from the 
past. The U.S. should provide advice on a security bill that is 
more in line with the rule of law and best practices in other 
democratic states.
    Regarding security sector reform, many Tunisians think that 
nothing drastic will change unless major steps are taken to 
address the corruption in the ministry of interior. There have 
been very little reforms made in the past 4 years.
    Further, the new minister, Najem Gharsalli, was a judge 
under Ben Ali, who has been accused of deep corruption by many 
within civil society. Many of the old practices of the former 
regime are creeping back too, including within the prison 
system. For example, the Tunisian Organization Against Torture 
is currently investigating almost 70 torture cases in 2015.
    Torture is an easy way to radicalize anyone. This must end, 
and the United States should not stand idly by and ignore this 
wretched trend. As a result, prison reforms need to take place 
as well. Moreover, there are many arbitrary arrests that are 
once again occurring, even if they have no connections to 
jihadi networks or attacks that have occurred. This could be a 
source of radicalization as well. It is imperative that the 
United States works with the Tunisian MOI and its police forces 
to professionalize what it does. They need to better learn the 
art of intelligence gathering, and then once a case starts, 
doing the proper paperwork for preparing it to go to court.
    A major retraining and reeducation could be something the 
United States helps with in terms of capacity building. This 
type of effort needs patience, though, since Tunisia is coming 
out of 45 years of authoritarian rule. Therefore, it is crucial 
for there to be a sense of duty and discipline instilled within 
the police force. The key is to transform the body into a force 
that is seen as a protector, not a force that takes away 
individuals' rights or are involved in abuses of power. Related 
to this, during the uprisings many courts, police stations, and 
police equipment were destroyed. Therefore, instead of 
providing only money, it would be worthwhile if the United 
States funded specific rebuilding projects. That way it would 
cut down on potential corruption from the government, but also 
provide new jobs for locals since the economy remains the most 
important issue for the average Tunisian. Therefore, it will 
provide tangible benefits that the local populace can see 
instead of monetary promises that might seem distant.
    And finally, related to public relations and transparency, 
since the uprising the Tunisian Government has had difficulty 
with its ability to properly communicate after attacks have 
occurred. In all high profile cases, the government has been 
slow at articulating transparently what occurred and what the 
government is doing about it. If it wants to solidify its 
democratic bona fides it needs to leave the more shadowy and 
murky as well as secretive aspects of investigations in the 
past. The public has a right to know.
    There are two recent examples in the aftermath of the 
Sousse beach attack that highlight some of these deficiencies. 
First, when Essebsi announced the reimplementation of the state 
of emergency, he stated, ``If similar attacks occur again, the 
state will collapse.'' Not only was this comment irresponsible, 
it was also quite amateurish. He should have been reassuring 
the public. Moreover, on the same day, the MOI spokesman 
explained that it did not want to blame the attack in Sousse on 
the Islamic State because advertising their involvement would 
radicalize the public. This illustrates a lack of trust by the 
government in the public to remain vigilant and resilient. This 
is something the United States can provide advice on how to 
more professionalize the government's public persona and 
ability to articulate properly to the public.
    Beyond reforming issues related to the security front, as 
everyone is well aware, there needs to be serious economic 
reforms that affect the entire country, and not just those on 
the coast. At the end of the day, Tunisians just want to 
support their families, live a good life, and be able to travel 
within their country without feeling insecure.
    Not all is lost, and the Tunisian Government can right the 
ship, but it needs to do more and not fall back on old habits 
from the Ben Ali era, which have already proven failures. It 
needs to also have a vision which goes beyond rhetoric. It 
needs to inspire the younger generation, otherwise individuals 
that have connections or are well off will move to Germany or 
France, while those that might not have those opportunities 
could be swayed easier into joining up with jihadis who could 
provide guidance and a vision, even if the individual does not 
necessarily agree with the ideology from the beginning.
    The United States should be there to lend a helping hand 
based off our own experiences and best practices with 
transitioning countries in Asia, South America, and eastern 
Europe. The Tunisian people deserve an honest and good ally, 
and the United States can be that.
    Let's help the Tunisian people complete their dream that 
started more than 4 years ago. America can provide that 
guidance and assistance. Thank you very much for your time.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    [The prepared statement of Mr. Zelin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Sweeney.

STATEMENT OF MR. WILLIAM SWEENEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Sweeney. Madam Chairman, Ranking Member Deutch, and 
distinguished members of the subcommittee.
    Ms. Ros-Lehtinen. If you could push that little button 
there to amplify your remarks.
    Mr. Sweeney. Thank you. Madam Chairman, Ranking Member 
Deutch, and distinguished members of the subcommittee, on 
behalf of the International Foundation for Electoral Systems, 
better known as IFES, I deeply appreciate this opportunity to 
discuss Tunisia's fragile democratic transition.
    Before I begin, I would like to echo my colleagues' 
statements on the Sousse tragedy. Our thoughts are with our 
partners in Tunisia and those around the world who lost loved 
ones.
    Madam Chairman, it is not the first election that 
establishes a democracy, but those that take place years or 
even decades later. Tunisia's planned 2016 municipal and 
regional elections will be the country's next democratic test. 
Continued support by the U.S. Government and its allies in the 
international community is imperative to the success of the 
municipal and regional elections.
    To briefly summarize our written statement, there are 
several key electoral issues the Tunisians and their 
international partners must address prior to the local 
elections planned for 2016.
    The first priority should be the drafting of a legal 
framework for municipal and regional elections. None currently 
exists. IFES recommends the adoption of a unified consolidated 
electoral law that will regulate all types of elections and 
referendums in Tunisia. One national process and standard will 
build trust and prevent confusion.
    Second, the ISIE, the Tunisian Election Commission, should 
be made a permanent entity, with the protections of civil 
service, and be further developed to provide professional, 
efficient, and sustainable election administration. As an 
independent agency, the ISIE must build the capacity and 
professionalism of its regional offices to undertake the 
organizational burden of the local elections.
    A third priority is to confront and implement lessons 
learned from the 2014 elections. For example, campaign finance 
regulations were overly strict, while enforcement measures were 
lax. The ISIE should also seek to improve its voter and civic 
outreach strategies. Media, particularly radio outlets, should 
improve standards on election coverage. Finally, demographics 
demand a focus on youth. Over a third of Tunisians between 15 
and 29 remain jobless. To this group, a dictatorship and a 
democracy are still much the same.
    Madam Chairman and Ranking Member Deutch, I conclude by 
reiterating that while Tunisia is a job well done, it is also a 
job not finished. American assistance, particularly for 
democracy and governance activities, will continue to play a 
critical role in strengthening Tunisia's fledgling democracy. 
IFES commends the people of Tunisia for their hard work, 
sacrifice, and continued dedication even in the face of 
unspeakable violence and intimidation. We are proud to partner 
with ISIE to ensure there is a vote for every Tunisian voice. 
Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you.
    [The prepared statement of Mr. Sweeney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                                  ----------                              

    Ms. Ros-Lehtinen. And thank you to all of our panelists. 
And to start our question and answer period, we will begin with 
Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair. I appreciate 
you giving me the time.
    The high profile attacks at Tunis and Sousse have certainly 
exacerbated Tunisia's economic challenges. Tourism, after all, 
is a significant percentage of Tunisia's GDP. And those attacks 
probably, they certainly appear to have been aimed at the 
tourism industry, which would then in turn probably spur 
dissension amongst the Tunisian people against the government.
    Let me ask you this. What steps are the Tunisians taking to 
prevent additional attacks in the future? And what would you 
think would be the impact should there be another terrorist 
attack of this sort on the political environment, on the 
economy of Tunisia? And I would welcome anybody who might like 
to address that.
    Ambassador Green, if you wanted to take it first, that 
would be fine.
    Ambassador Green. Sure. Thank you. Thanks for the question.
    Well, first off, obviously if, and let's hope it never 
occurs, but if there were another attack, it certainly would 
continue to increase anxiety, put pressure on the government, 
and rattle the nerves of the principal audience for tourism, 
which is just miles away in Europe.
    So I think several things are important here. First off, 
again, to recognize the current impact on the economy. Tourism 
is awfully important to Tunisia, as you mentioned in your 
question. And this has certainly rattled tourism. The Tunisians 
have taken a number of steps to provide immediate security in 
some of the tourism areas. And while the images may be 
unsettling of having armed guards along the beaches and in some 
of those sites, they are certainly understandable. I think 
everyone recognizes how difficult they can be.
    But I think the more important steps that need to be taken 
are addressing the underlying problems in the economy. This is 
an economy built by an authoritarian regime at a different 
time, an overwhelming bureaucracy that stifles entrepreneurship 
and adds not only tremendous burdens to entrepreneurs inside 
the country, but openly discourages foreign direct investment. 
And while the government obviously needs to take on security 
challenges and to worry about tourism, it cannot put off much 
longer some of these fundamental reforms that are the key to 
creating opportunity down the line.
    As was mentioned by my colleagues, we have very high youth 
unemployment, some of the highest youth unemployment anywhere. 
As long as young people believe that there is future hope for 
opportunity, I think they are prepared for some of the hard 
choices that will need to be made.
    However, if they don't see opportunity, if they don't 
believe that they have a government committed to taking on some 
of these tough choices and underlying reforms, then when you 
see security rattled by terrorist strikes it only raises the 
anxiety, increases the frustration, and sadly, I fear, also 
causes young people to disengage more and more from democratic 
institutions that are so essential to the country's future.
    Mr. Chabot. Thank you. Let me turn to another question 
rather than go down the line or I won't get another question 
out. Is the U.S. doing enough by way of security assistance in 
cooperation with Tunisia? How do we help Tunisia solidify its 
democratic gains made thus far?
    And briefly, maybe I will start with you, Mr. Sweeney, if 
we can just go down the line this way, what are your 
organizations doing to assist them in democratic foundation? 
Mr. Sweeney?
    Mr. Sweeney. Thank you, sir. First of all, our organization 
is not involved with security issues except insofar as how they 
affect an election process. I would say that the United States 
is stepping up in response to the requests of the Tunisian 
Government.
    The NATO designation, a number of other steps that have 
been taken in the last few weeks are all very positive. But I 
would also go back to your last question, sir. The attack by 
terrorists is not just at the tourist industry. The tourist 
industry is 15 percent of the economy.
    The attack is at the legitimacy of the democratic progress 
and the remaining 85 percent of the economy that Ambassador 
Green very pointedly made the comment that this 85 percent was 
built up under an authoritarian period, and now there are so 
many efforts to open that economy and bring it into the 21st 
century. And all of that progress is under threat by terrorism 
as well.
    Mr. Chabot. Thank you. Mr. Zelin, briefly.
    Mr. Zelin. The U.S. has been doing a lot over the past 6 
months in terms of providing different types of assistance, 
whether it is more Blackhawks, whether it is in terms of the 
NATO designation, as well as helping out in other types of 
military equipment.
    One of the key issues here is that Tunisia has had this 
jihadi problem bubbling up under the surface for a good 20 
years. The issue is, is that many different realize it because 
most of the Tunisians involved in it had been involved in it 
outside of Tunisia because of the authoritarian system of Ben 
Ali. So after the uprising in 2011, a lot of it started coming 
back into the country. And now because of some of the policies 
that occurred post-2011 in the early years in terms of not 
necessarily taking the threat as very serious, we are now 
seeing some of the backlash as a result of this.
    So it didn't come out of nowhere necessarily. It is more a 
process that is coming into the fore moreso because of things 
that have already occurred.
    Mr. Chabot. Thank you. Mr. Campbell--Madam Chair, can he 
respond briefly? Okay. You can respond very briefly, Mr. 
Campbell.
    Mr. Campbell. I will defer to Mr. Zelin on the security. 
But just to amplify Ambassador Green's point and add to that 
quickly, that in terms of structural changes that are needed in 
Tunisia that may help address the security, it is a top-down 
country, very centralized, with great regional disparities. And 
they have an opportunity coming up this year and next year to 
decentralize, to put decisionmaking more at the local level, 
and to engage citizens in helping to control the decisions that 
affect their lives at the local level.
    It won't have the same immediate impact as the security 
sector reform, but I think it is a part of the longer term 
solution.
    Mr. Chabot. Thank you very much. And Mr. Green, very 
briefly.
    Ambassador Green. Yeah, if I might, I think it is important 
to remember that many of the militaries in this part of the 
world were created to protect the government from its people.
    This is a military that is transitioning to being what we 
would refer to a military that protects the country from its 
threats. That is a difficult transition, A.
    And B, we have talked a bit about I think what Les has 
referred to is a non-sexy issue, and he is right, improving the 
ability of ministries to communicate, to work together, to 
control expectations in the public, and to encourage the public 
to buy into the solutions. If you don't have those 
communications, when the military moves, people will run in the 
opposite direction.
    Fostering that investment, that personal investment in that 
capacity is crucial for a country that is trying to make the 
transition they are.
    Mr. Chabot. Thank you. My time has expired.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot. Excellent 
questions. Mr. Deutch of Florida.
    Mr. Deutch. Thank you very much, Madam Chairman. I just had 
a couple questions about the perception of the people and the 
way they view government.
    First, the decision by Ennahda to join a secular-led 
government, I would like our witnesses to offer your thoughts 
on whether that was a decision that was a top-down decision or 
does it reflect the will of the people? And ultimately, what 
does it mean long term for a party like that to have made that 
decision to enter a secular government? Ambassador?
    Ambassador Green. It is interesting. And the organizations 
represented here, many of us held our meetings together with 
the ministries in advance of the elections. And they were 
talking even back then of trying to foster what is enshrined in 
the constitution. And that is the separation of church and 
state, and to enshrining freedom of worship.
    The fact that you saw the Islamist party move so quickly to 
condemn the Charlie Hebdo attack, that you saw it move so 
quickly to concede defeat and congratulate the winner after the 
election, I think that shows that there is really buy in and 
momentum around this idea of a uniquely Tunisian Government and 
structure of government that respects faith.
    I think it is great in the wake of an election in which 
everyone feels very good about what has happened, it is great 
in the wake of the success of the constitution. What I think we 
are saying is it is vitally important we stand with them to 
build the capacity of the government to be effective, to be 
able to meet the needs of average Tunisians so that that 
important sense and philosophy can continue.
    Mr. Deutch. All right. Mr. Campbell?
    Mr. Campbell. It is a great question. And I wondered that 
myself. I remember sitting in the Ennahda office, you know, not 
long after they made the decision, before they stepped down but 
when they were making the decision to step aside. And I too 
wondered about motivations. But I think in the Middle East 
generally, but especially in Tunisia, looking for moderation, I 
don't think we have to question motivations too much.
    What seems important to me is that Ennahda, whether because 
of, you know, I don't know if it was, you know, genuine 
commitment to the principles that they espoused or not, but 
because of what happened in Egypt they wanted to avoid that, 
which I think was important. Because they felt constrained by 
public opinion, especially after the political assassinations, 
there was lot of blowback when secular politicians were 
assassinated. Because of international expectations. There was 
pressure from the international community saying, you know, we 
want you to behave democratically. I think for those sort of 
outside reasons they decide to step aside.
    And I think what is important in a democratic transition is 
not necessarily that the actors are motivated by, sort of, you 
know, thoughts that we would prefer, but that they feel somehow 
constrained both by domestic opinion but also by international 
pressure. And they certainly felt constrained, and they acted 
in a way that we would I think applaud. And I think if we would 
continue to reward that behavior we would gt more of the same 
behavior.
    Mr. Deutch. Okay. You are nodding, Mr. Zelin?
    Mr. Zelin. I agree pretty much with what everybody says. 
But on the other hand, I also think that it also is a sign of 
the fragileness of the system as it is, where a winner can't 
take all just yet, otherwise people might feel that things 
could really get bad.
    So I do believe that in terms of the next national 
election, if a party wins and takes all and then becomes truly 
ruling party instead of in this broader national collection, 
that is when I think we could really see signs that this 
democracy is really solidifying in many respects.
    Mr. Deutch. Mr. Sweeney?
    Mr. Sweeney. I concur with just about everything that has 
been said by my three colleagues. And the question is really 
can the consensus toward shared values and tolerant society and 
a belief in democratic values and an acceptance of the results 
of the ballot process continue to be accepted?
    And Tunisia had a very, very rocky, difficult time. And the 
two assassinations forced a great many Tunisian leaders to have 
long conversations with themselves and their colleagues about 
how they wanted their society to evolve. And that is why the 
2014 election was so important to all of us, particularly the 
Tunisians, about how they wanted their society to move forward. 
And I think that is the challenge ahead.
    Mr. Deutch. Mr. Sweeney, how much of the decision do you 
think is made because of their views of what is best for 
Tunisia or their views based on dealing with or avoiding 
certain externalities, as Mr. Campbell touched on?
    Mr. Sweeney. All of the above, sir. I mean you have a 
variety of motivations that came into play, as with any 
political decision. And that political decision resulted in a 
desire to go forward through an electoral process and then live 
with the results of that electoral process.
    And I think those of us who were in Tunisia and saw the 
reaction to the assassinations in particular knew that this 
society and the political leaders in the society and the 
religious and business leaders in the society knew that they 
had the challenge to come together or else they would lose 
their country.
    Mr. Deutch. Thank you, Madam Chairman. Before yielding 
back, I just would like to note that while we have enjoyed two 
hearings together today, I do not believe we will have a 
hearing tomorrow together, which makes this the most opportune 
time to wish you a happy early birthday. And I yield back.
    Ms. Ros-Lehtinen. Thirty-nine again. Do you believe it, Mr. 
Deutch?
    Mr. Deutch. Another anniversary.
    Ms. Ros-Lehtinen. You don't believe it, I know. Thank you, 
Ted. And now I will yield my time to Mr. Wilson, who is not 
here. Mr. Trott.
    Mr. Trott. Thank you, Madam Chairwoman. I want to thank the 
ranking member as well for holding this hearing. And I 
apologize I came late and did not hear some of your statements, 
gentlemen. So if I ask questions that you covered, it is a 
scheduling issue here in Congress.
    And my question is to any member of the panel. How big of a 
problem is corruption in Tunisia? Obviously, we have never 
successfully solved the problem in Afghanistan. I am just 
curious how big of a hurdle, an obstacle that will be going 
forward?
    Ambassador Green. I think corruption is a very significant 
problem in the country. Again, it dates back quite some ways, 
but certainly rose to its peak under Ben Ali and the 
authoritarian regime that he led. And it has stifled 
individuality, entrepreneurship, and touched nearly every 
aspect of Tunisian life.
    That is why organizations like those represented here 
believe so strongly in the need to work on democracy and 
governance and build government capacity. It really gives them 
the tools and the ability to take on these issues. It is hard 
to see them succeeding if they don't.
    Mr. Campbell. You know, I agree, although I would say that, 
you know, having traveled the world a lot, Tunisia doesn't feel 
immediately as corrupt as you might find say in Afghanistan, 
just as an example, in terms of the day to day feeling.
    What I view as the bigger issue, and I think many Tunisians 
will express this maybe in slightly different terms than I do, 
is the economy is run on the basis of cartels, franchises, 
concessions. You know, it is crony capitalism. So certain 
families. If you are in the right family and you get the right 
conferred by the government to have a, you know, monopoly over 
cement production or something like that, you are filthy rich, 
and everyone associated with you is filthy rich.
    And I think the prevailing feeling in Tunisia is if you 
aren't in those circles, then you are really in deep trouble 
and you are, you know, scraping and so on. And if you are not 
in the right region, so you are not in the right family, the 
right neighborhood, the right region, you feel like you are 
shut out and there is no opportunity to get ahead.
    So this may sound like Pollyanna-ish sort of thinking, but 
the idea of equal opportunity of a meritocracy, for example 
government jobs being awarded on the basis of qualifications 
rather than some kind of, you know, hand me down, these are 
important things. And this is the hard and very unsexy work of 
democracy assistance is trying to work on government reforms 
that don't simply allow people to give out, you know, 
franchises that allow certain people to become billionaires.
    So that is the kind of corruption I think is probably more 
relevant to this discussion in Tunisia. And it exists there.
    Mr. Trott. And is there a desire, Mr. Campbell, by the 
business community to try and move away from crony capitalism 
and create some equal opportunity?
    Mr. Campbell. I actually accompanied Raj Shah when he was 
the head of USAID on a trip to Tunisia. And he met with a lot 
of business leaders, not something I normally do. But it was 
interesting to be a fly on the wall. They talk that way in the 
sense that business leaders were looking for modernization. So 
for example they were looking for access to capital. You know, 
capital is all kind of tied up and hard to get.
    They are looking for modern approaches to real estate and 
to property ownership and so on. So I think in that sense they 
want access to money, they want the modern systems, I think 
they would like to join the clubs, the economic clubs around 
the world.
    But having said that, when you are in those circles you get 
a real sense that this is an elite. And you see even with the, 
you know, with the now ruling party, I support what they have 
done, I think they are doing a good job, but there is a kind of 
an unsettling undercurrent within the ruling party of the crony 
capitalists having again circled the wagons.
    So I think the answer is 50-50. Sure, they would like to 
have a modern economy, but I don't think they are going to give 
up the monopoly power they have.
    Mr. Trott. Does the new constitution make inroads toward 
protecting, you know, and addressing some of those issues? 
Hopefully, it addresses civil liberties and gender equality, 
but how about business concerns?
    Mr. Campbell. That is a good question. I don't think I can 
answer that accurately. I believe it does, but I haven't looked 
at that specifically.
    Mr. Sweeney. If I might go back to my prior experience 
heading global policy for a Fortune 100 company, it is 
hopefully not in the constitution, but in the series of 
economic reforms that can be more easily changed in response to 
developments within the marketplace.
    Constitutional change, as we know in this country, tends to 
be very, very difficult. The question becomes around terms of 
foreign direct investment. International companies will not 
invest in Tunisia's economy as long as it is maintained by 
crony capitalists who are circles and families and cartels, 
which is an appropriate description.
    I think, as, going back to Ambassador Green's statement, 
there are a number of important reforms underway in the 
Tunisian process, which hopefully will attract foreign 
investment. Foreign investment is as much under attack as the 
tourist industry, because you are not going to invest where you 
don't think there is security to set up an organization and 
your people are safe. That is as much a threat of the 
terrorism.
    However, going to your question, there is hope for Tunisia 
because making a great deal of progress, and one of the 
national conversations they have been having at the legislative 
and political level is how do we make Tunisia attractive for 
foreign investment so that other companies and other countries 
can invest and create jobs here?
    Mr. Trott. Madam Chairwoman, I see my time has expired, but 
I just have one other question. You know, the border security 
issue is particularly acute given the threats from Libya. Is 
the U.S. doing enough?
    And how can Tunisia improve its border security, which I 
think is a key part of the success going forward? Particularly 
if the U.S. is doing enough. That is the question I want to 
hear answered.
    Mr. Zelin. Yeah, the Tunisian Government has been doing a 
lot more related to the border security with Libya, in 
particular in the past 6 months or so, starting in February 
when they sent more reenforcements from various parts of the 
security apparatus, and now they have announced only last week 
that they are trying to put up a border fence as well as in 
some areas sort of a moat between the borders.
    But the reality is, is that, it is not just necessarily an 
issue of people that are going to Libya and getting training 
going back. You have individuals who are already in the country 
that have access to weapons or people that are coming from 
Algeria, so it is not just a Libya issue here.
    It is sort of a wholistic approach that needs to be taken, 
and, you know, obviously helping out with the border security 
is definitely something the U.S. has already been doing with 
drones, aerial surveillance, I believe, already. And I know 
that the Algerians have been assisting with the Tunisian 
Government a lot on these issues as well, since they do share a 
border.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Trott. Thank you gentlemen.
    Ms. Ros-Lehtinen. Thank you, Mr. Trott. Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairwoman. And welcome to 
our panel. To pick up on the sort of the Libya aspect here, if 
you look at Tunisia and Libya, they are both overwhelmingly 
Sunni Muslim population, 97 and 98 percent. Libya's GDP per 
capita is actually higher. It is 6623 with a literacy rate of 
91 percent. Tunisia is 4,415 and 80 percent respectively. And 
the female literacy gap is actually less severe in Libya.
    So there are a lot of commonalities here. What is the 
nature of the divergence? Is it the violent history? Is it 
Qadhafi? Why are we seeing two very different paths with these 
two neighboring nations? Mr. Zelin.
    Mr. Zelin. I think one of biggest ones is that, unlike Ben 
Ali, who actually abdicated his power and went to Saudi Arabia, 
and the military didn't intervene but allowed sort of a 
transitional process to begin, in Libya of course as we know, 
Qadhafi wasn't interested at all in losing any power, and he 
went all the way until he got killed. I think that that is one 
of the biggest differences.
    And then as a result of that you have seen trends add on 
top of there exponentially from there in part because then 
there became a huge weapons bazaar in Libya and therefore a 
proliferation of different militias.
    And part of it, too, is that historically Libya or Qadhafi 
the way he ruled, sort of ruled different tribes as well as 
regions of the countries against each other, and that is why 
you are sort of seeing these different battles between 
different parts of Libya.
    Whereas in Tunisia, obviously there has been issues between 
sort of the coastal and interior, but it is just different 
historically.
    Mr. Campbell. If I can jump in, I mean, I think there is an 
obvious answer and then a couple less obvious answers. I the 
obvious difference is the French Colonial history. And one of 
the, you know, leftovers of that or leave-behinds, as well as 
enlightened Tunisian leadership in the 1950s and 1960s was a 
series of institutions, including civil Saudi institutions like 
trade unions. And so there was some sort of glue that held the 
country together. So that is kind of an obvious one. But I 
think it is important. We could tease it out, but it is very 
important.
    The second big difference is the tribal makeup of Libya. 
Traditionally territories that were very, very separate, ruled 
as fiefdoms by tribes, kind of artificially stitched together. 
And I think if you take the tribal nature versus Tunisia, which 
was much more urban, much, much more urban, much less tribal, 
so if you take the existing institutions which came in part 
because of Colonialism, but also because of a very a, you know, 
very strong national structure, and then look at the tribalism 
of Tunisia with absolutely no institutions, those are the two 
big things that explain the differences.
    Mr. Connolly. Yeah. Ambassador Green.
    Ambassador Green. Thank you. I was struck by, in the days 
leading up to the election, we asked the acting President 
whether Tunisia could serve as a model for the region, and he 
said no, not a model; maybe an inspiration. And I thought that 
was right.
    Tunisia in a number of ways is unique. The process that 
they undertook after Ben Ali fled, was a remarkable one. I 
think for all of us as observers watching the long process of 
the forums, the public forums they held around the country, I 
or I and NDI partnered in most of those forums. They listened 
patiently and took input, and they seemed to sincerely process 
that input. They were very cognizant of those youthful crowds 
that took to the streets in 2011.
    So I think there were a number of steps that they took 
early on that created a unique mix. I think they are right. I 
am not sure we would ever say, okay, let's take this model and 
transplant it next-door. But I think the spirit and the ethos 
that has been brought to bear is something hopefully that can 
be fostered elsewhere.
    And again, I think what you are hearing from us over and 
over again is we all look at this as a place where something 
good has happened through patient, persistent Tunisian-led 
work. We should never impose anything upon them, but where they 
are reaching out for help, as they are, we have a tremendous 
opportunity to help foster this and to reenforce it so that as 
the difficult challenges come up--and they are facing them 
right now--this special model that they have created can 
survive.
    Mr. Connolly. My time is up, but I think the point you make 
is a very good one, Mr. Ambassador, your two organizations, NDI 
and IRI, working around the world, I think you are right. It is 
not necessarily a model, but within the Tunisian experience, 
there are things that can be replicated or at least benchmarked 
against.
    And that is what we, I hope, can identify as the evolution 
continues so that others can benefit from the experience 
without slavishly saying it ought to be like Tunisia. Thank 
you. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly, very much. Dr. 
Yoho.
    Mr. Yoho. Thank you, Madam Chairman. I appreciate you all 
being here. This is a good hearing because we see this as a 
fledgling democracy growing in an area that they are not very 
well welcomed. And I see the biggest threat is, you know, the 
surrounding countries see Tunisia as an example of, you know, 
freedom, liberty, starting to develop, and it scares them; and 
so they are going to do everything they can to erode that.
    What can we do? And I know this question was asked earlier. 
Is there more that we can do or the Tunisian Government asking 
us, what would be probably the most significant benefit that we 
can afford them to help them keep their democracy going? Mr. 
Sweeney, if you want to start.
    Mr. Sweeney. Thank you, sir. The quick answer is there is 
always more, and particularly in the area of economic 
assistance, both in terms of direct grants, as well as helping 
with the Tunisia investment funds and a number of other areas.
    In terms of security, I will defer to my colleague in terms 
of democracy and governance. Ambassador Green noted in his 
testimony that only 16 percent of programming is right now 
directed toward democracy and governance activities. And if we 
are to help keep Tunisians on the path toward democracy and 
full engagement in their society, we suggest there is more that 
can be done there as well.
    Mr. Yoho. Okay. Ambassador Green, let me ask you, because 
you were talking about--I lost my train of thought--you were 
talking about how the democracy was coming up, and there was a 
lot of corruption in the government--I think it was you--and 
that a lot of the people at the top were wealthy and they were, 
you know, crony capitalism.
    How do you change that dynamic to where the people on the 
lower income scales seize opportunity? Because without 
opportunity, it is hard to support a government like that. What 
are we doing to change that--not we because I think the more we 
meddle, the more it gets messed up. What are they doing to 
change that internally?
    Ambassador Green. Well, and I think my colleague, Les 
Campbell, put it well. The type of corruption they have is a 
crony capitalism and is a cartel-dominated system. So much of 
the Arab Spring which began here was out of frustration for 
lack of opportunity.
    So I think what we can do is help to provide support for 
the fundamental policy reforms in the economy that they need to 
take and which they know they need to take. So we have to help 
them undertake those reforms to get rid of this stifling 
bureaucracy that is a holdover from the Ben Ali days so that 
young people--they have a very high percentage of college 
graduates. They have an exceptionally good education system in 
that sense.
    But they have got this large population of college 
graduates, fairly well-educated, know there is something 
better, and are on the outside because they aren't one of those 
big families, as Les made reference to.
    The government knows that we need to provide the technical 
assistance and the training as well as the investment to stand 
behind them as they get rid of this bureaucracy and create a 
vibrancy that will create a hope for the future.
    Mr. Yoho. And let me ask, with the war going on in Syria, I 
just read an article that, I think, 33 Tunisians left to go to 
Libya for training to join ISIS and that the recruiters are 
being paid $3,000 to $10,000 per recruit; and when you are in a 
country that has 33 percent unemployment in the youth, I mean, 
that is attractive.
    If the Syrian civil war, if we were to negotiate some type 
of negotiation through the U.N. With other nations to bring 
that to an end, would that help the situation in Tunisia? Mr. 
Campbell, you want to weigh in on that.
    Mr. Campbell. I think I would defer to Mr. Zelin on that 
one since he studies this specifically but----
    Mr. Yoho. Okay. Thank you.
    Mr. Zelin. You know, there are so many individuals involved 
in this movement now, that even with the Syrian conflict 
ending, which it doesn't seem like it is going to happen any 
time soon, I still think it is going to be an issue. And I have 
actually met Tunisians that have fought in Syria and returned 
to Tunisia; and some of them went purely for economic reasons 
because then they are able to provide remittances to their 
parents.
    So, while there definitely people that go for ideological 
reasons, at least in the case of Tunisia, some go for economic 
reasons, too.
    Mr. Yoho. Okay. And this is kind of off the mark here, but 
with the Iran nuclear negotiation and Iran going to gain more 
power and hegemony in the Middle East, how do you see this 
affecting the situation in Tunisia where fledgling democracy is 
trying to rise up, promoting liberties and freedoms different 
than what is normal in that situation, and do you think Iran 
will stand by and allow that to happen?
    Mr. Campbell. Maybe I will take a crack at this somewhat, 
but just to mention something that we haven't brought up 
because this is about Tunisia, but North Africa, or the 
Maghreb, we think of Morocco, Algeria and Tunisia. They have 
many things in common, including the French language, but the 
big thing that they have in common is that they are all staunch 
U.S. allies; so you do have a very strong series of three 
countries together, very strong U.S. allies, very much anti-
Iran, no question. I mean I don't think you would find any 
sympathy for Iran in any way, shape, or form, in any part of 
society in Morocco, Algeria or Tunisia.
    These are countries that want and choose to be close to the 
U.S., to Western partners. They are countries that want and 
accept all sorts of security assistance and so on. And the 
countries, Morocco and Tunisia particularly, that have the 
express desire and goal of transitioning to democracies.
    So I think my answer is it is a little bit broad because 
Iran is so far away from them, but my answer would be these are 
bulwarks against the kind of extremism we are trying to fight. 
They are U.S. Allies, and they are looking and asking for 
assistance, so it is a wonderful opening.
    And the three countries together, if they were to 
economically integrate more, could become a powerful and 
attractive force.
    Mr. Yoho. Let's hope they do that and that democracy shows 
and shines over there of what freedom does. And I appreciate 
it. Thank you, ma'am.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho. Mr. Clawson.
    Mr. Clawson. What percent of the population would you all 
estimate is sympathetic, supportive of extremists that have 
violent goals? And if someone else has already asked that, I 
apologize for coming in a little bit late, but that tells me 
what kind of fertilizer is in the country. Right? So go ahead.
    Mr. Zelin. I can try and answer this sort of by proxy. So 
from about April 2011 until the end of August 2013, there is an 
organization in the country called Ansar al-Sharia, and it was 
openly able to proselytize its ideas without much government 
intervention until they designated a group at the end of August 
2013.
    And during their second conference, which was the last 
conference they were able to hold, there was about 40,000 
individuals that attended it. They were going to have a third 
conference in May 2013, but the government didn't allow it, and 
they said that potentially up to 100,000 people were going to 
attend. Of course, it is difficult to verify because it didn't 
happen, but the country has about, I believe, 11 million 
people; so that is maybe 1 percent at best, if you are doing 
the most liberal estimate.
    So it is really not that many individuals. And the thing to 
remember about Ansar al-Sharia is some of these people got 
involved just more for the proselytization aspects of it and 
not necessarily for the violent aspects that happened 
afterwards, because after the group was designated, many 
individuals actually quit the organization because they didn't 
want to be involved in the violent parts.
    Mr. Clawson. Everybody agree with that?
    Mr. Campbell. I would just add one thing to this. 
Unfortunately it is hard to really quantify, but people are 
always struggling to find reasons why young Tunisians go abroad 
and join jihadist groups. I think there are many reasons, and 
we have tried to address some of those today, and other 
members, Representatives, have mentioned some of this as well.
    But one of the reasons that is put forward by Tunisians 
that Tunisians go abroad is that there is not a lot of support 
for violent jihadi talk and behavior in Tunisia. Certainly it 
happens. We have seen these attacks, but it is not embraced and 
accepted. And there are a lot of other countries in the region 
where you can join a group and be open about it and sort of 
brag about being violent and killing people, and it is not a 
problem.
    In Tunisia that is not an acceptable thing. And so, again, 
I don't know how that translates into numbers; but at least for 
right now, Tunisia is not an enabling environment, and it is 
exporting people because people that feel that way have to go 
elsewhere. It is not the only reason they go elsewhere, but it 
is part of the reason they go elsewhere.
    Mr. Clawson. So there is not a certain portion of the 
mosques or others where there was open celebration to what 
occurred?
    Mr. Campbell. I can't answer specifically. I am not aware 
of that. I mean, I look at the Tunisian news. If it happened, 
it wasn't very obvious.
    Ambassador Green. If I can, I think it is very hard to get 
specific numbers to think of it in those terms, but what I 
think you can do is look at the outside objective indicators. 
This is the country that is constructed by popular assent, the 
most moderate constitution in the region. In the Arab world, a 
constitution which protects freedom of religion, that is 
remarkably progressive in so many ways, enshrined the role of 
women.
    So in the constitution, which they adopted by vote, it 
would certainly push back and be contrary to the extremism that 
we have seen in so many other places. And I found what Les said 
intriguing. Maybe that is one of the reasons why it is such a 
big source of foreign fighters in Syria. But the logical 
conclusion of that is when one day that conflict in Syria ends 
or winds down, we do have to think about what happens when they 
come back, and that will be a threat to the institutions in 
Tunisia because some of them will have been radicalized by 
their involvement in Syria. Again, another, I think, 
opportunity for the U.S. as a friend to offer assistance and to 
help as we can.
    Mr. Clawson. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Clawson.
    And we are in the midst of votes. We have 5 minutes left, 
so I will not be able to ask my questions, but I had the honor 
of visiting Tunisia with Speaker Boehner in a CODEL he led just 
a few months ago. It was after the museum attack and before 
this latest attack, and it certainly is a land of great 
promise; so we will pray and work for the people of Tunisia and 
throughout the region.
    Thank you gentlemen, for your time and for sharing your 
wisdom with us. And with that the subcommittee is adjourned.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]
                                     
                                     

                            A P P E N D I X

                              ----------                              


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
